PX

C@OCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No, 19-223
JANICE SMYTH,
Petitioner,

Vv.
CONSERVATION COMMISSION OF FALMOUTH and
TOWN OF FALMOUTH,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE AND BRIEF OF AMICI
CURIAE NATIONAL FEDERATION OF INDEPENDENT BUSINESS SMALL BUSINESS LEGAL CENTER,
SOUTHEASTERN LEGAL FOUNDATION, AND OWNERS’ COUNSEL OF AMERICA IN SUPPORT OF PETITIONER
in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly
addressed to the following:

SEE ATTACHED
To be filed for:
Robert H. Thomas Karen R. Harned
Counsel of Record Luke A. Wake
DAMON KEY LEONG NFIB SMALL BUSINESS
KUPCHAK HASTERT LEGAL CENTER
1600 Pauahi Tower 1201F Street, NW
1003 Bishop Street Suite 200
Honolulu, Hawaii 96813 Washington, DC 20004
(808) 531-8031 (202) 314-2061
rht@hawaiilawyer.com luke.wake@nfib.org

Counsel for Amici Curiae

Subscribed and sworn to before me this 17th day of September, 2019.

Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

 

Notary Public

Affiant 38703
Counsel for Petitioner:

J. David Breemer

Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
jbreemer@pacificlegal.org
(916) 419-7111

Counsel for Respondents:

Nolan Ladislav Reichl
Pierce Atwood LLP
Merrill's Wharf

254 Commercial Street
Portland, ME 04101
nreichl]@pierceatwood.com
(207) 791-1304
